            U.S. Department of
                                                            Memorandum
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General

Subject:    INFORMATION: Airline Industry Metrics                    Date:    July 2, 2003


  From:     Kenneth M. Mead                                        Reply to   JA-50 x69970
                                                                   Attn of:
            Inspector General
    To:     The Secretary
            Deputy Secretary
            Chief of Staff
            Associate Deputy Secretary
            Assistant Secretary for Aviation
             and International Affairs
            Assistant Secretary for Transportation Policy
            Federal Aviation Administrator
            Deputy Director, Bureau of Transportation
             Statistics

           Attached is the fourth in a series of periodic updates to our airline industry
           metrics. As a result of the September 11, 2001 terrorist attacks, the war in Iraq,
           and the weakness in business travel that has persisted since early 2001, the airline
           industry is facing its greatest challenge since deregulation. The attached metrics
           were developed as a means for monitoring airline industry trends relating to
           domestic system demand and capacity, performance, finances, and air service at
           small airports. Overall, the metrics illustrate a number of important trends,
           including:

           Ø The continuing weakness in passenger demand (down 11 percent in May 2003
             from May 2000) coupled with the lack of full-fare business travelers (business
             travel dropped 26 percent in December 2002 from December 2000) and the
             drop in fare prices, continue to hamper the industry’s ability to increase yields,
             and in turn, return to profitability.

           Ø Due to the lessening distinction between full-fare and discount ticket prices,
             the Air Transport Association ceased collecting and reporting data on business
             fares as of January 2003. We are in the process of determining whether an
             alternative source for these data is available.

           CC-2003-048
                                                                                 2


Ø The larger network airlines, facing growing losses, have cut service and/or
  shifted capacity to their regional affiliates—leading to low-fare and other
  smaller airlines expanding their domestic market shares.

Ø Although service cuts have helped increase passenger load factors, the “break
  even” load factor (the average percentage of paying passengers needed on all
  flights to cover airline costs) has risen even faster, due in large part to
  declining fares and higher fuel costs.

Ø While the number of flight operations is approaching pre-September 11 levels,
  the average size of aircraft being flown has dropped due to the rapid
  introduction of regional jets and the retirement of larger aircraft.

Ø Finally, the smallest airports (non-hub)          continue   to   experience   a
  disproportionate reduction in air service.

If you have any questions or if I can be of further assistance, please feel free to
contact me at (202) 366-1959, or Mark R. Dayton, Assistant Inspector General
for Competition and Economic Analysis, at (202) 366-9970.

Attachment

                                        #




CC-2003-048
  AIRLINE INDUSTRY METRICS
       Trends on Demand and Capacity,
        Aviation System Performance,
Airline Finances, and Service to Small Airports

           Number: CC-2003-048
          Date Issued: July 2, 2003
                     SUMMARY OF AIRLINE INDUSTRY METRICS
This is the fourth in a series of periodic updates to our airline industry metrics. As a
result of the September 11 terrorist attacks, the war in Iraq, and the weakness in business
travel demand that has persisted since early 2001, the airline industry is facing its greatest
challenge since deregulation.

Based on data obtained from the U.S. Department of Transportation (DOT), Federal
Aviation Administration (FAA), and Air Transport Association (ATA), the Office of
Inspector General has developed 38 metrics (see Figures 1 through 38, pages 6 through
12) for monitoring airline industry trends relating to domestic system demand and
capacity, performance, finances, and air service at small airports.1 Although subject to
change, these metrics provide decisionmakers with past, present, and future indicators of
domestic service levels and general state of the airline industry.

I.       Air Service Demand and Capacity
         ü AIR TRAFFIC DEMAND: Although the number of air travelers had been increasing from
           the sharp decline following September 11, 2001, the number began falling again during
           the latter part of 2002. While the December 2002 number showed some improvement
           (down only 4 percent from 2 years earlier), this was due in large part to the timing of
           holiday travel. With the approach of the war in Iraq, however, passenger enplanements
           again began dropping, with February through May 2003 numbers down between
           16 percent and 18 percent from the same period in 2000. [Figure 1]

         ü CAPACITY VERSUS DEMAND: Actual domestic capacity as measured in available seat
           miles (ASMs) increased after September 11, 2001, at a faster rate than passenger
           demand as measured by revenue passenger miles (RPMs)—especially during the spring
           and early summer of 2002. However, during the latter part of 2002 and first 2 months
           of 2003, the reverse appeared to be the case as airlines brought capacity in line with
           travel demand. As of May 2003, passenger demand (RPMs) and actual capacity
           (ASMs) were down 11 percent and 12 percent, respectively, from May 2000.
           [Figure 2]

         ü FLIGHT OPERATIONS: FAA’s Air Route Traffic Control Centers reported handling
           nearly the same number of flight operations in January 2003 as in January 2000.2
           Nevertheless, the last 4 months have shown a significant decrease with the number of
           flight operations down 7 percent in May 2003 versus May 2000. [Figure 3]

         ü MAJOR AIRLINES ARRIVALS: The decline in capacity has not been uniform among
           major carries as roughly shown by flight arrivals. Southwest and Alaska reported
           increases in the number of flight arrivals (i.e., 9 percent and 2 percent, respectively)


     1
          Due to the sizable impact that the terrorist attacks had on domestic flight service during the latter part of
          2001, we used 2000 as the base year in many of our metrics.
     2
          Includes both scheduled and non-scheduled (for example, general aviation and military) air traffic.
                                                                                                                      1
       between April 2000 and April 2003. The other seven major airlines reported declines
       ranging from 2 percent for America West to 38 percent for US Airways. [Figure 4]

    ü AIRLINE SCHEDULES—SUMMER 2003: Although the number of flights offered in
      airline schedules increased in 2002 after initially dropping in the months following
      September 11, 2001, this trend reversed in August 2002. The war in Iraq worsened this
      reversal so that by May 2003 the number of scheduled flights nearly equaled the lows
      reached in November 2001. With the end of the war, flight schedules have begun to
      recover, with the airlines currently scheduling 12 and 13 percent fewer flights and
      available passenger seats, respectively, in June 2003 versus June 2000. Schedules for
      this summer, however, show little added improvement, with flights and available
      passenger seats remaining down, between 9 and 13 percent, from the same period in
      2000. [Figure 5]

    ü REGIONAL DIFFERENCES: When comparing all airports, the Northeast region
      continues to experience the largest decline in air service as compared to other parts of
      the country. For example, between June 2000 and June 2003, the Northeast
      experienced an 18 percent drop in scheduled available passenger seats, versus the
      Midwest (-13 percent), West (-13 percent), and South (-11 percent). [Figure 6]

    ü AIRPORT RECOVERY RATES: The recovery rate among the Nation’s largest airports
      continues to vary significantly as measured in scheduled available passenger seats. For
      example, only one airport saw an increase between June 2000 and June 2003 (Fort
      Lauderdale +11 percent). All other large airports experienced varying levels of decline
      during this period—the 10 worst being: San Francisco (-32 percent), Dulles
      (-32 percent), St. Louis (-32 percent), Honolulu (-28 percent), Pittsburgh (-28 percent),
      Boston (-27 percent), Los Angeles (-26 percent), Newark (-20 percent), Reagan
      National (-17 percent), and Miami (-16 percent). [Figure 7]

    ü LOSS OF SHORT HAUL AIR SERVICE: For scheduled flights of less than 250 miles,
      nearly one in four (or 24 percent) were dropped between June 2000 and June 2003. In
      comparison, flights of 500 miles or more experienced far less change in service levels.
      Moreover, during this period, the major network airlines were more likely to cut their
      short haul flights, which declined 39 percent, than either the low fare (-6 percent) or
      other smaller (-22 percent) airlines.3 [Figures 8 and 9]

    ü LOW-FARE AND OTHER SMALLER AIRLINES GAIN MARKET SHARE: In contrast to the
      major network airlines, many low-fare and other smaller airlines have continued to
      expand their market shares (as measured in scheduled available passenger seats),
      increasing approximately 5 and 3 percentage points, respectively, between June 2000
      and June 2003. Consequently, the major network airlines have seen their share of

3
     Network airlines include American, Alaska, America West, Continental, Delta, Northwest, United, and
     US Airways.
     Low fare airlines include AirTran Airways, American Trans Air, Delta Song, Frontier Airlines, JetBlue
     Airways, National Airlines, Pan American Airways, Southwest Airlines, Spirit Airlines, Sun Country, and
     Vanguard Airlines. However, Vanguard Airlines and National Airlines ceased operations in July and
     November 2002, respectively.
     Other airlines include smaller regional, commuter, and national airlines (many of which are affiliated with
     the major network carriers).
                                                                                                               2
         domestic air service decline from 65 percent to 56 percent during this same period.
         [Figure 10]

      ü MARKET SHARE AND GROWTH OF LOW-FARE AIRLINES: Of the total number of
        passenger seats scheduled by the nine low-fare airlines, Southwest represented
        approximately 68 percent in June 2003. Southwest also provided nearly 41 percent of
        the total growth in low-fare service over the last 5 years, followed by JetBlue
        (17 percent), American Trans Air (13 percent), Airtran (10 percent), Frontier
        (8 percent), Spirit (6 percent), and Delta Song (4 percent). [Figures 11 and 12]

      ü GROWTH IN REGIONAL JET (RJ) FLIGHTS: Another significant development involves
        the phenomenal growth in RJ flights.4 Scheduled flights involving RJs increased
        142 percent (from 71,764 to 173,732) between June 2000 and June 2003. Flights
        involving other aircraft types experienced far less growth or sharp declines, including
        piston (no change), turboprop (-44 percent), and large jets (-18 percent). Overall, the
        portion of scheduled flights involving RJs has grown from 8 percent to 21 percent
        between June 2000 and June 2003. [Figures 13 and 15]

      ü RJ FLIGHTS AT LARGE AIRPORTS: RJs are also assuming a larger share of the total
        number of scheduled flights at the 31 largest airports. Those airports with the highest
        percentages of RJ flights as of June 2003 are: Cincinnati (72 percent), Houston
        (40 percent), Newark (36 percent), Reagan National (32 percent), Dallas-Ft. Worth
        (31 percent), Salt Lake City (31 percent), Boston (30 percent), LaGuardia (30 percent),
        Atlanta (25 percent), and Chicago O’Hare (24 percent). [Figure 14]

II. Air System Performance
      ü FLIGHT DELAYS AND CANCELLATIONS: For most of the last 3 years, flight delays and
        cancellations have remained well below levels reached in 2000. For example, between
        April 2000 and April 2003, gate arrival delays were down 60 percent (from 74,655 to
        29,885), while cancellations dropped more than 76 percent (from 8,853 to 2,096).
        Likewise, gate departure delays were down approximately 61 percent (from 63,372 to
        24,496). Poor weather conditions in February 2003, however, resulted in a noticeable
        increase in flight delays and cancellations—although these numbers were still below
        those reported in February 2000 and February 2001. [Figures 16, 17, and 18]

      ü OTHER INDICATORS OF DELAYS: Other indicators of flight delays were also down in
        April 2003 from April 2000, including the percentage of flights arriving late (from
        23 percent to 12 percent), the percentage of flights departing late (from 20 percent to
        10 percent), the average length of gate arrival delays (from 52 minutes to 46 minutes),
        and the average length of gate departure delays (from 54 minutes to 47 minutes).
        [Figures 19, 20, 21, and 22]




  4
       For this analysis, we defined RJs as those jet aircraft seating from 30 to 80 passengers.
                                                                                                   3
III. Airline Finances
      ü BUSINESS AND LEISURE TRAVEL: The drop in higher-fare business travelers, which
        began before September 11, has especially hurt the airlines. Although business
        (first-class and full-fare coach) and leisure traffic improved significantly in the months
        immediately following the terrorist attacks, both remained consistently down in 2002.
        Business travel, in particular, was down 26 percent in December 2002 from
        December 2000. As of January 2003, ATA ceased collecting and reporting business
        versus leisure fares due to the lessening distinction between full-fare and discount ticket
        prices. [Figure 23]

      ü AIRLINE TICKET PRICES AND YIELDS: The decline in high-fare business travel,
        coupled with an overall drop in ticket prices, has significantly affected airline yields.
        Between May 2000 and May 2003, for instance, the average ticket price for a
        1,000 mile flight dropped from $147 to $118, resulting in a 20 percent decline in airline
        yields from passenger traffic. [Figures 24 and 25]

      ü AIRLINE LOAD FACTORS: Because of the airlines’ continuing efforts to constrain
        capacity and the gradual return of passengers in response to fare discounting, aircraft
        load factors reached 70 percent for the quarter ending December 2002—matching the
        level achieved during the same period in 2000. Yet, the “break even” load factor (the
        average percentage of paying passengers needed on all flights to cover airline costs) has
        risen more than 13 percentage points (from 72 to 85 percent) during this same period.
        Among the major airlines, the break even load factor ranged from a low of 58 percent
        for Southwest to a high of 106 percent for United. [Figures 26 and 27]

      ü AIRLINE REVENUES AND EXPENSES: Airline operating revenues were down more than
        expenses in 2002. For the quarter ending December 2002 as compared to the same
        period in 2000, operating revenues declined 22 percent, whereas operating expenses
        declined 10 percent.5 One recent factor hampering the airlines’ efforts to reduce
        expenses was the rapid increase in jet fuel costs, which increased over 20 percent
        between April 2002 and April 2003. [Figures 28 and 29]

      ü AIRLINE DEBT TO INVESTMENT: Due to large operating losses, airline debt to
        investment ratios climbed from 50 percent in 2000 to 66 percent in 2001. For the
        quarter ending December 2002, the ratio had increased further to 87 percent, with
        individual airline ratios ranging from 28 percent for Southwest to 314 percent for
        US Airways.6 Debt to investment, in part, measures an airline’s ability to finance
        operations, given fluctuations in demand and revenue. [Figures 30 and 31]

      ü AIRPORT AND AIRWAY TRUST FUND: Lower demand and ticket prices have also
        reduced tax collections for the Airport and Airway Trust Fund.                Prior to
        September 11, 2001, FAA projected overall collections of $11.9 billion for Fiscal Year

  5
       Airline operating revenue was also affected by a sharp drop in domestic mail shipments, which declined
       60 percent between 2000 and 2002.
  6
       DOT publishes debt to total investment ratios in the Major Airline Quarterly Financial Review. Debt is
       defined as long-term debt, capital leases, and advances from associated companies, less unamortized debt
       expenses. Total investment includes all the debt items plus stockholder’s equity.
                                                                                                              4
         (FY) 2003. FAA now estimates $9.4 billion in tax collections in FY 2003, a drop of
         more than 21 percent. Current estimates also show that over the next 5 years (FY 2004
         through FY 2008) Trust Fund tax revenues are expected to be about $13 billion less
         than projections made in April 2001. [Figure 32]

III. Air Service at Small Airports
      ü CHANGES IN AIR SERVICE: Over the last 5 years, the smallest airports (non-hubs) have
        experienced deeper cuts in air service than their larger counterparts. As of June 2003,
        for instance, non-hub airports saw a 19 percent reduction in scheduled available
        passenger seats from June 1998. This compares to a 3 percent reduction for the larger
        airports. Airline schedules currently project little improvement in air service by
        September 2003, with non-hub airports down 18 percent versus 4 percent for larger
        airports when compared to September 1998. [Figure 33]

      ü REGIONAL DIFFERENCES: Non-hub airports in the Northeast and Midwest have had
        far larger drops in air service than other parts of the country in the last 3 years.
        Between June 2000 and June 2003, these two regions lost 36 percent and 26 percent,
        respectively, of their scheduled available passenger seats versus an 18 percent decline
        in the South and an 8 percent decline in the West. [Figure 34]

      ü ACCESS TO LARGE AIRPORTS: Non-hub airports also experienced a greater loss of
        direct service to and from the largest airports than did other airports. Non-hub airports
        lost 23 percent of scheduled flights to the largest airports between June 2000 and
        June 2003. In comparison, small, medium, and large airports experienced reductions of
        only 5 percent to 13 percent. [Figure 35]

      ü RJ GROWTH: Overall, scheduled flights at non-hub airports involving RJs increased
        155 percent between June 2000 and June 2003. In comparison, flights involving other
        aircraft types experienced either far less growth or sharp declines, including piston (no
        change), large jets (-29 percent), and turboprop (-35 percent). [Figure 36]

      ü LOW FARE SERVICE: Non-hub airports can anticipate little or no added air service by
        low-fare airlines—even though these airlines are one of the few segments of the
        industry experiencing continued expansion. Overall, low-fare airlines scheduled
        service to only 8 of the more than 400 non-hub airports in June 2003,7 representing
        approximately 3 percent of the total available passenger seats to these airports. In
        comparison, the major network and other smaller airlines comprised roughly 19 percent
        and 78 percent, respectively, of scheduled service. [Figure 37]

      ü ESSENTIAL AIR SERVICE (EAS): In the aftermath of September 11, 2001,
        congressional funding and the number of small communities requesting EAS subsidies
        increased significantly. For example, between FYs 2001 and 2003, funding rose
        126 percent (from $50 million to $113 million), while the number of subsidized
        communities increased 9 percent (from 115 to 125). For FY 2004, however, the
        President’s budget request calls for a return to the $50 million level and is proposing
        significant changes in how subsidies are allocated. [Figure 38]

  7
       These data include only those non-hub airports that receive at least one scheduled flight per week.
                                                                                                             5
                                                                                                                                                                           Airline Industry Metrics


        Figure 1: Passenger Enplanements                                                                                                                                                                                                      Figure 2: Capacity vs. Demand
        Percent Change in Revenue Passenger Enplanements from 2000                                                                                                                                                                            Percent Change in Available Seat Miles vs. Revenue Passenger
        (ATA Data)                                                                                                                                                                                                                            Miles from 2000 (ATA Data)
                                                                                                                                                                                                                                                                                                                                                                                              May '03 RPM
                    10%                                                                                                                                                                                                                              10%
                                                                                                                                                                                                                                                                                                                                                                                                 -11%

                    0%                                                                                                                                                                                                                                0%
Percentage




                                                                                                                                                                                                                                      Percentage
                -10%                                                                                                                                                                                                                                 -10%


                -20%                                                                                                                                                                                                                                 -20%

                                                                                                                                                                                                                                                                                                                                                                                          May '03 ASM
                -30%                                                                                                                                                                                                                                 -30%                                                                                                                                    -12%
                                                                                                                   Sep '01                                                                          May '03
                                                                                                                    -34%                                                                             -17%
                                                                                                                                                                                                                                                     -40%
                -40%




                                                                                                                                                                                                                                                                                                                                                                   Jul-02




                                                                                                                                                                                                                                                                                                                                                                                                                                  May-03
                                                                                                                                                                                                                                                                                                                                                                                                   Jan-03
                                                                                                                                                                                                                                                                                                                                                                            Sep-02

                                                                                                                                                                                                                                                                                                                                                                                         Nov-02



                                                                                                                                                                                                                                                                                                                                                                                                            Mar-03
                                                                                                                                                                                                                                                                                 May-01

                                                                                                                                                                                                                                                                                              Jul-01




                                                                                                                                                                                                                                                                                                                                                        May-02
                                                                                                                                                                                                                                                            Jan-01




                                                                                                                                                                                                                                                                                                                              Jan-02
                                                                                                                                                                                                                                                                     Mar-01




                                                                                                                                                                                                                                                                                                       Sep-01

                                                                                                                                                                                                                                                                                                                 Nov-01



                                                                                                                                                                                                                                                                                                                                       Mar-02
                                                      May-01

                                                                    Jul-01




                                                                                                                                       May-02

                                                                                                                                                  Jul-02




                                                                                                                                                                                                                         May-03
                          Jan-01




                                                                                                                Jan-02




                                                                                                                                                                                          Jan-03
                                        Mar-01




                                                                                 Sep-01

                                                                                                   Nov-01



                                                                                                                            Mar-02




                                                                                                                                                              Sep-02

                                                                                                                                                                            Nov-02



                                                                                                                                                                                                        Mar-03
                                                                                                                                                                                                                                                                                 Available Seat Miles                                                      Revenue Passenger Miles



             Figure 3: Actual Flight Operations                                                                                                                                                                                           Figure 4: Major Airlines Actual Arrivals
             Percent Change in Air Route Traffic Control Center Operations from
                                                                                                                                                                                                                                          Percent Change in Actual Arrivals by Airline 4/03 vs. 4/00
             2000 (FAA Data)
                                                                                                                                                                                                                                          (FAA Data)
                      5%
                                                                                                                                                                                                                                                      15%            9%
                                                                                                                                                                                                                                                                                          2%
                      0%
                                                                                                                                                                                                                                                       0%
       Percentage




                                                                                                                                                                                                                                                                                                        -2%
                                                                                                                                                                                                                                        Percentage




                     -5%                                                                                                                                                                                                                                                                                                  -6%
                                                                                                                                                                                                                                                      -15%
                                                                                                                                                                                                                                                                                                                                       -19%                      -20%
                    -10%                              Sep '01                                                                                                                                                                                         -30%
                                                                                                                                                                                                                                                                                                                                                                              -27%                -29%
                                                       -16%
                                                                                                                                                                                                                                                      -45%                                                                                                                                                     -38%
                    -15%
                                                                                                                                                                                               May '03
                                                                                                                                                                                                -7%
                                                                                                                                                                                                                                                      -60%
                    -20%
                                                                                                                                                                                                                                                                     Southwest




                                                                                                                                                                                                                                                                                                                                                                                                                     US Airways
                                                                                                                                                                                                                                                                                                                                          Continental
                                                                                                                                                                                                                                                                                          Alaska




                                                                                                                                                                                                                                                                                                                          Northwest
                                                                                                                                                                                                                                                                                                       America




                                                                                                                                                                                                                                                                                                                                                                 American


                                                                                                                                                                                                                                                                                                                                                                                 Delta


                                                                                                                                                                                                                                                                                                                                                                                                  United
                                                                                                                                                                                                                                                                                                        West
                                                           May-01

                                                                        Jul-01




                                                                                                                                         May-02

                                                                                                                                                    Jul-02




                                                                                                                                                                                                                         May-03
                               Jan-01




                                                                                                                   Jan-02




                                                                                                                                                                                           Jan-03
                                             Mar-01




                                                                                      Sep-01

                                                                                                      Nov-01



                                                                                                                              Mar-02




                                                                                                                                                                Sep-02

                                                                                                                                                                             Nov-02



                                                                                                                                                                                                            Mar-03




       Figure 5: Scheduled Capacity
                                                                                                                                                                                                                                        Figure 6: Regional Differences at All Airports
       Percent Change in Scheduled Flights and Available Seats at
                                                                                                                                                                                                                                        Percent Change in Available Seats at All Airports 6/03 vs. 6/00
       All Airports from 2000 (FAA Data)
                                                                                                                                                                                                                                        (FAA Data)
                     4%                                                                                                                                                                                                                                                                                                                                      Midwest
                                                                                                                                                                                                                                                            West                                                                                              -13%
                     0%                                                                                                                                                                                                                                     -13%
                                                                                                                                                                                                                                                                                                                                                                                                    Northeast
                                                                                                                                                                                                                                                                                                                                                                                                     -18%
   Percentage




                    -4%


                    -8%


                -12%                                                                                                                                                                                                                                                                                                                                                                 South
                                                                                                                                                                                                                                                                                                                                                                                     -11%
                -16%
                                                  May-01

                                                               Jul-01




                                                                                                                              May-02

                                                                                                                                       Jul-02




                                                                                                                                                                                                   May-03

                                                                                                                                                                                                                Jul-03
                          Jan-01




                                                                                                       Jan-02




                                                                                                                                                                         Jan-03
                                        Mar-01




                                                                             Sep-01

                                                                                          Nov-01



                                                                                                                   Mar-02




                                                                                                                                                  Sep-02

                                                                                                                                                             Nov-02



                                                                                                                                                                                      Mar-03




                                                                                                                                                                                                                             Sep-03




                                                                                                                                                                                                                                                                                                   National Average -13%
                                                               Scheduled Flights                                                                           Available Seats




                                                                                                                                                                                                                                                                                                                                                                                                                 6
                                                  Airline Industry Metrics


Figure 7: Large Airports                                                          Figure 8: Length of Flight
Percent Change in Scheduled Flights and Available Seats at the                    Percent Change in Scheduled Flights by Length of Flight
31 Largest Airports 6/03 vs. 6/00 (FAA Data)                                      6/03 vs. 6/00 (FAA Data)

                                                                                        10%                                                 5%
  -50% -40% -30% -20% -10%           0%    10% 20%

                                                                                         0%
                                                      Fort Lauderdale




                                                                         Percentage
                                                                                                                                                              -2%
                                                      Baltimore                        -10%

                                                      Kennedy                                                           -12%
                                                                                       -20%
                                                      Las Vegas
                                                                                                      -24%
                                                                                       -30%
                                                      Salt Lake City

                                                      Houston                          -40%
                                                                                                      0 to 249        250 to 499         500 to 999          1,000+
                                                      Charlotte
                                                                                                                               Miles
                                                      Tampa

                                                      Minneapolis

                                                      San Diego                   Figure 9: Short Haul Flights by Type of Airline
                                                                                  Percent Change in Scheduled Flights Less Than 250 Miles by Type of
                                                      Atlanta                     Airline 6/03 vs. 6/00 (FAA Data)

                                                      Detroit
                                                                                         0%
                                                      Cincinnati
                                                                                       -10%                                        -6%
                                                      Seattle
                                                                         Percentage




                                                      LaGuardia                        -20%
                                                                                                                                                           -22%
                                                      Phoenix                          -30%
                                                      Orlando
                                                                                       -40%
                                                      Denver                                             -39%
                                                                                       -50%
                                                      Chicago O'Hare
                                                                                                        Network                  Low Fare                All Others
                                                      Philadelphia
                                                                                                                        Type of Air Carrier
                                                      Dallas-Ft. Worth

                                                      Miami
                                                                                      Figure 10: Airline Market Share
                                                      Reagan National                 Airline Market Share by Available Seats (FAA Data)*
                                                      Newark
                                                                                        75%
                                                      Los Angeles                                65%                  64%
                                                                                                                                         60%
                                                      Boston                            60%                                                                 56%

                                                      Pittsburgh
                                                                          Percentage




                                                                                        45%
                                                      Honolulu
                                                                                        30%                                                                           23%
                                                      St. Louis
                                                                                                             20%               20%             19% 21%          21%
                                                                                                       15%               17%
                                                      Dulles                            15%

                                                      San Francisco
                                                                                         0%
                                                                                                      6/2000            6/2001              6/2002             6/2003
           Scheduled Flights                Available Seats                       * All percentages
                                                                                                                   Network         Low Fare           All Others
                                                                                    are rounded.




                                                                                                                                                                        7
                                                                                 Airline Industry Metrics


  Figure 11: Market Share of Low-Fare Service                                                     Figure 14: RJs at Large Airports
  Airline Share of Service by Available Seats, 6/03 (FAA Data)*                                   RJs Share of Scheduled Flights at 31 Largest Airports 6/03 vs. 6/00
                                                                                                  (FAA Data)

                                                                                                                     0%     15%        30%       45%        60%         75%
                                            Spirit, 3%    Delta Song, 2%
                             Frontier, 4%
                                                                                                        Cincinnati
                                                                            Other, 1%
                       JetBlue, 6%                                                                        Houston
    American Trans
       Air, 8%                                                                                            Newark

                                                                                                  Reagan National

             Airtran, 9%                                                                          Dallas-Ft. Worth

                                                                             Southwest,             Salt Lake City
                                                                               68%                         Boston
        * All percentages
          are rounded.                                                                                 LaGuardia

                                                                                                           Atlanta

                                                                                                  Chicago O'Hare
Figure 12: Low-Fare Service Growth
Airline Share of Growth by Available Seats, 6/03 vs. 6/98 (FAA Data)*                                   Pittsburgh

                                                                                                         Charlotte

                                                                                                         Kennedy
                                                  Delta Song, 4%
                                    Spirit, 6%                     Other, 1%                               Detroit
                                                                                   Southwest,
               Frontier, 8%
                                                                                     41%                  Orlando

                                                                                                         St. Louis
 Airtran, 10%
                                                                                                      Philadelphia

                                                                                                    San Francisco
                     American
                     Trans Air,                      JetBlue, 17%
                                                                                                           Denver
                       13%
                                                                                                          Phoenix
         * All percentages
           are rounded.
                                                                                                      Minneapolis

                                                                                                            Dulles
   Figure 13: Type of Aircraft                                                                        Los Angeles
   Percent Change in Number of Scheduled Flights by Type of Aircraft 6/03
   vs. 6/00 (FAA Data)                                                                                     Tampa

             180%                                                                                          Miami
                                                                                    142%
             150%                                                                                 Fort Lauderdale
             120%
                                                                                                        Baltimore
              90%
Percentage




              60%                                                                                          Seattle
              30%                                                   0%                                  San Diego
               0%
              -30%                                                                                      Las Vegas
                                                 -18%
              -60%           -44%                                                                        Honolulu
              -90%
                         Turboprop          Large Jets             Piston         Regional Jets
                                                                                                                     June 2000                      June 2003
                                                 Type of Aircraft




                                                                                                                                                                          8
                                                                                                           Airline Industry Metrics


                         Figure 15: Market Share by Aircraft Type                                                                          Figure 16: Arrival Delays                                                                 (FAA Data)
                         Percent Share of Scheduled Flights by Type of Aircraft (FAA Data)*
                                                                                                                                                                         120,000                                                 Apr '03 v '00
                          70%                                                                                                                                                                                                       -60%
                                    58%                      58%                     57%                                                                                 100,000
                          60%                                                                                54%




                                                                                                                                              Number of Delays
                          50%                                                                                                                                             80,000
           Percentage




                          40%
                                                                                                                                                                          60,000
                                              28%
                          30%                                        25%
                                                                                             21%                   21%
                                                                                                                                                                          40,000
                          20%                                                              16%                       18%
                                                                   11%
                          10%            8%                                                                                    7%                                         20,000
                                                   6%                       6%                     6%

                           0%
                                                                                                                                                                                  0
                                         6/2000                    6/2001                  6/2002                  6/2003




                                                                                                                                                                                                                                     May




                                                                                                                                                                                                                                                           Aug
                                                                                                                                                                                                                                                    Jul
                                                                                                                                                                                                                            Apr
                                                                                                                                                                                                        Feb




                                                                                                                                                                                                                                                                   Sep




                                                                                                                                                                                                                                                                                 Nov
                                                                                                                                                                                                                                                                          Oct
                                                                                                                                                                                                                    Mar
                                                                                                                                                                                            Jan




                                                                                                                                                                                                                                             Jun




                                                                                                                                                                                                                                                                                          Dec
                        * All percentages
                                                                 Large Jets                         Regional Jets
                          are rounded.                           Turboprop                          Piston                                                                                                     2000                        2001             2002                2003




                   Figure 17: Departure Delays                                     (FAA Data)                                                                            Figure 18: Cancellations                                          (FAA Data)
                                                                                                                                                                                                                                                                                Sep '01
                   100,000                                                                                                                                               24,000                                                                                                 64,947
                                             Apr '03 v '00
                                                                                                                                                                                                                                   Apr '03 v '00
                                                -61%
                                                                                                                                                                         20,000                                                       -76%
                    80,000
                                                                                                                                               Number of Cancellations
Number of Delays




                                                                                                                                                                         16,000
                    60,000

                                                                                                                                                                         12,000
                    40,000
                                                                                                                                                                          8,000
                    20,000
                                                                                                                                                                          4,000

                              0
                                                                                                                                                                               0
                                                                                             Aug
                                                             Apr
                                             Feb




                                                                     May

                                                                             Jun




                                                                                                     Sep




                                                                                                                         Nov

                                                                                                                                    Dec
                                                    Mar




                                                                                     Jul




                                                                                                              Oct
                                   Jan




                                                                                                                                                                                                                                                           Aug
                                                                                                                                                                                                                           Apr
                                                                                                                                                                                                    Feb




                                                                                                                                                                                                                                    May

                                                                                                                                                                                                                                            Jun




                                                                                                                                                                                                                                                                  Sep




                                                                                                                                                                                                                                                                                 Nov

                                                                                                                                                                                                                                                                                          Dec
                                                                                                                                                                                                                Mar




                                                                                                                                                                                                                                                    Jul




                                                                                                                                                                                                                                                                         Oct
                                                                                                                                                                                        Jan




                                                    2000                   2001                   2002               2003                                                                                      2000                       2001             2002                 2003




                   Figure 19: Percent of Flights Arriving Late                                                                                                              Figure 20: Percent of Flights Departing Late
                   (FAA Data)                                                                                                                                               (FAA Data)
                                                                                                                                                                                                                                                                                  Dec '00
                        40%                                                                                                                                              40%
                                                                                                                                                                                                                                                                                   31%
                                                                                                           Dec '00                                                                                                               Apr '03
                                              Apr '03                                                       33%                                                                                                                   10%
                                               12%
                        30%                                                                                                                                              30%
                                                                                                                                          Percentage
Percentage




                        20%                                                                                                                                              20%



                        10%                                                                                                                                              10%



                         0%                                                                                                                                               0%
                                                                                            Aug
                                                           Apr
                                            Feb




                                                                    May

                                                                            Jun




                                                                                                    Sep




                                                                                                                     Nov

                                                                                                                                Dec
                                                   Mar




                                                                                    Jul




                                                                                                             Oct
                                  Jan




                                                                                                                                                                                                                                                          Aug
                                                                                                                                                                                                  Feb




                                                                                                                                                                                                                                   May




                                                                                                                                                                                                                                                                  Sep




                                                                                                                                                                                                                                                                                Nov
                                                                                                                                                                                                                          Apr




                                                                                                                                                                                                                                                   Jul
                                                                                                                                                                                      Jan




                                                                                                                                                                                                                                           Jun




                                                                                                                                                                                                                                                                                          Dec
                                                                                                                                                                                                              Mar




                                                                                                                                                                                                                                                                         Oct




                                                    2000                   2001                  2002                2003                                                                                 2000                           2001              2002                 2003




                                                                                                                                                                                                                                                                                       9
                                                                                                                                                                                           Airline Industry Metrics


             Figure 21: Length of Arrival Delays                                                                                                                (FAA Data)                                                                                        Figure 22: Length of Departure Delays                                                          (FAA Data)

                                                                                                                                                                                                                                                                                                                                    May '00
              75                                                                                                                                                                                                                                                        75
                                                                                                                                                    Jun '00                                                                                                                                  Apr '03                               60 Minutes
                                          Apr '03                                                                                                  59 Minutes                                                                                                                              47 Minutes
                                        46 Minutes
              60                                                                                                                                                                                                                                                        60


              45
Minutes




                                                                                                                                                                                                                                                                        45




                                                                                                                                                                                                                                                             Minutes
              30                                                                                                                                                                                                                                                        30


              15                                                                                                                                                                                                                                                        15


               0                                                                                                                                                                                                                                                         0




                                                                                                                                                                                                                                                                                                                                                       Aug
                                                                                                                                                                                                                                                                                            Feb




                                                                                                                                                                                                                                                                                                                        May




                                                                                                                                                                                                                                                                                                                                                                  Sep




                                                                                                                                                                                                                                                                                                                                                                                         Nov
                                                                                                                                                                                                                                                                                                              Apr




                                                                                                                                                                                                                                                                                                                                             Jul
                                                                                                                                                                                                                                                                                  Jan




                                                                                                                                                                                                                                                                                                                                    Jun




                                                                                                                                                                                                                                                                                                                                                                                                    Dec
                                                                                                                                                                                                                                                                                                     Mar




                                                                                                                                                                                                                                                                                                                                                                            Oct
                                                                                                                                                           Aug
                                           Feb




                                                                                                  May




                                                                                                                                                                            Sep




                                                                                                                                                                                                                Nov
                                                                                 Apr




                                                                                                                                            Jul
                             Jan




                                                                                                                    Jun




                                                                                                                                                                                                                                 Dec
                                                                  Mar




                                                                                                                                                                                              Oct



                                                              2000                                          2001                                            2002                                             2003                                                                                  2000                         2001                      2002                          2003



        Figure 23: Business and Leisure Travel                                                                                                                                                                                                                     Figure 24: Air Fares for Major Network Airlines
        Percent Change in Business and Leisure Travel from 2000 (ATA Data)*
                                                                                                                                                                                                                                                                   Average Fare for 1,000 Mile Trip, Excluding Taxes (ATA Data)
              10%
                                                                                                                                                                                              Dec '02                                                                                                                           May '03                                                Oct '00
                                                                                                                                                                                              Business                                                             $180                                                          $118                                                   $151
               0%                                                                                                                                                                              -26%
                                                                                                                                                                                                                                                                   $160

             -10%                                                                                                                                                                                                                                                  $140
                                                                                                                                                                                                                                                  Average Fares




                                                                                                                                                                                                                                                                   $120
Percentage




             -20%
                                                                                                                                                                                                                                                                   $100
                                                                                                                                                                                                                                                                       $80
             -30%
                                                  Sep '01
                                                                                                                                                                                                                                                                       $60
                                                  Business
             -40%                                  -47%                                                                                                                                                                                                                $40
                                                                                                                                                                                                                                                                       $20
             -50%
                                                                                                                                                                                                                                                                        $0
                             Feb-01



                                                          May-01


                                                                            Jul-01




                                                                                                                                              Feb-02



                                                                                                                                                                         May-02


                                                                                                                                                                                           Jul-02
                    Jan-01



                                                Apr-01


                                                                   Jun-01


                                                                                     Aug-01




                                                                                                                                     Jan-02



                                                                                                                                                                Apr-02


                                                                                                                                                                                  Jun-02


                                                                                                                                                                                                    Aug-02
                                      Mar-01




                                                                                              Sep-01


                                                                                                                Nov-01
                                                                                                                          Dec-01



                                                                                                                                                       Mar-02




                                                                                                                                                                                                             Sep-02


                                                                                                                                                                                                                               Nov-02
                                                                                                                                                                                                                                         Dec-02
                                                                                                       Oct-01




                                                                                                                                                                                                                      Oct-02




                                                                                                                                                                                                                                                                                                                                                       Aug
                                                                                                                                                                                                                                                                                                             Apr
                                                                                                                                                                                                                                                                                           Feb




                                                                                                                                                                                                                                                                                                                       May

                                                                                                                                                                                                                                                                                                                                   Jun




                                                                                                                                                                                                                                                                                                                                                                 Sep




                                                                                                                                                                                                                                                                                                                                                                                         Nov

                                                                                                                                                                                                                                                                                                                                                                                                    Dec
                                                                                                                                                                                                                                                                                                    Mar




                                                                                                                                                                                                                                                                                                                                             Jul




                                                                                                                                                                                                                                                                                                                                                                            Oct
                                                                                                                                                                                                                                                                                  Jan




        *Analyzed by Deutsche
         Bank Securities Inc.
                                                                                                        Business                                                                       Leisure                                                                                                     2000                         2001                     2002                          2003



             Figure 25: Airline Yield                                                                                                                                                                                                                             Figure 26: Passenger Load Factors
             Percent Change in Airline Yield from 2000 (ATA Data)                                                                                                                                                                                                 Actual vs. Breakeven Percentages (DOT Data)
                                                                                                                                                                                                                                                                                                                                                                            Breakeven
                5%                                                                                                                                                                                                                                                     100%                                                                                                    85%


                0%                                                                                                                                                                                                                                                     80%

               -5%
Percentage




                                                                                                                                                                                                                                                    Percentage




                                                                                                                                                                                                                                                                       60%
                                                                                                                                                                                                             May '03
              -10%                                                                                                                                                                                            -20%                                                     40%                                                                                                      Actual
              -15%                                                                                                                                                                                                                                                                                                                                                               70%
                                                                                                                                                                                                                                                                       20%
              -20%                                                                                                        Oct '01
                                                                                                                           -19%                                                                                                                                         0%
                                                                                                                                                                                                                                                                              1Q 2000


                                                                                                                                                                                                                                                                                        2Q 2000


                                                                                                                                                                                                                                                                                                  3Q 2000


                                                                                                                                                                                                                                                                                                            4Q 2000


                                                                                                                                                                                                                                                                                                                      1Q 2001




                                                                                                                                                                                                                                                                                                                                             3Q 2001


                                                                                                                                                                                                                                                                                                                                                       4Q 2001


                                                                                                                                                                                                                                                                                                                                                                  1Q 2002


                                                                                                                                                                                                                                                                                                                                                                             2Q 2002


                                                                                                                                                                                                                                                                                                                                                                                          3Q 2002


                                                                                                                                                                                                                                                                                                                                                                                                     4Q 2002




              -25%
                                                                                                                                                                                                                                                                                                                                   2Q 2001
                                                         May-01

                                                                      Jul-01




                                                                                                                                                May-02

                                                                                                                                                                Jul-02




                                                                                                                                                                                                                                        May-03
                         Jan-01




                                                                                                                 Jan-02




                                                                                                                                                                                                         Jan-03
                                       Mar-01




                                                                                     Sep-01

                                                                                                  Nov-01



                                                                                                                                   Mar-02




                                                                                                                                                                             Sep-02

                                                                                                                                                                                           Nov-02



                                                                                                                                                                                                                        Mar-03




                                                                                                                                                                                                                                                                                                            Actual                                               Breakeven




                                                                                                                                                                                                                                                                                                                                                                                                10
                                                                                                                                            Airline Industry Metrics

   Figure 27: Individual Airline Load Factors                                                                                                                                        Figure 28: Revenues vs. Expenses
   Actual vs. Breakeven Percentages for Quarter Ending 12/02 (DOT Data)                                                                                                              Airline Operating Revenues vs. Operating Expenses (DOT Data)

                      120%                                                                                                                                                                         $30                                                                                                                                             Expenses
                                                                                                                                                                                                                                                                                                                                                    $21.8
                      100%                                                                                                                                                                         $25
                      80%
                                                                                                                                                                                                   $20
Percentage




                                                                                                                                                                               Billions
                      60%
                                                                                                                                                                                                   $15
                      40%
                                                                                                                                                                                                   $10                                                                                                                                       Revenues
                      20%                                                                                                                                                                                                                                                                                                                     $18.9
                                                                                                                                                                                                    $5
                       0%
                                                                                                                                 American
                                                                                                             US Airways
                                                                                        America
                                                            Continental


                                                                            Alaska




                                                                                                                                                                  United
                                            Delta




                                                                                                                                               Northwest
                               Southwest




                                                                                                                                                                                                    $0
                                                                                         West




                                                                                                                                                                                                         1Q 2000


                                                                                                                                                                                                                     2Q 2000


                                                                                                                                                                                                                                 3Q 2000


                                                                                                                                                                                                                                                 4Q 2000


                                                                                                                                                                                                                                                                     1Q 2001




                                                                                                                                                                                                                                                                                                        3Q 2001


                                                                                                                                                                                                                                                                                                                    4Q 2001


                                                                                                                                                                                                                                                                                                                                   1Q 2002


                                                                                                                                                                                                                                                                                                                                                  2Q 2002


                                                                                                                                                                                                                                                                                                                                                                      3Q 2002


                                                                                                                                                                                                                                                                                                                                                                                          4Q 2002
                                                                                                                                                                                                                                                                                         2Q 2001
                                                       Actual                                                              Breakeven                                                                                             Operating Revenues                                                                     Operating Expenses




                 Figure 29: Cost Per Gallon for Jet Fuel (ATA Data)                                                                                                                           Figure 30: Debt to Investment Ratio
                                                                                                                                                                                              Airline Debt to Investment Ratio for All Major Airlines (DOT Data)

                       $1.20                                                                                                                                                                            100%
                                                                                         Apr '03 v '02                                                                                                                                                                                                                                                                     87%
                                                                                            +20%                                                                                                        90%
                       $1.00
                                                                                                                                                                                                        80%                                                                                                                                                 73%
                                                                                                                                                                                                                                                                                                                            70%
                                                                                                                                                                                                                                                                                                                    66% 68%
      Average Costs




                       $0.80                                                                                                                                                                            70%                                                                                             60%
                                                                                                                                                                                                                                                           53% 54% 54%
                                                                                                                                                                                      Percentage




                                                                                                                                                                                                        60%
                                                                                                                                                                                                                   50% 48% 48%
                       $0.60                                                                                                                                                                            50%
                                                                                                                                                                                                        40%
                       $0.40
                                                                                                                                                                                                        30%
                       $0.20                                                                                                                                                                            20%
                                                                                                                                                                                                        10%
                       $0.00
                                                                                                                                                                                                          0%
                                                                                                                     Aug
                                                                      Apr
                                           Feb




                                                                            May

                                                                                        Jun




                                                                                                                             Sep




                                                                                                                                                           Nov

                                                                                                                                                                        Dec
                                                      Mar




                                                                                                       Jul




                                                                                                                                             Oct
                                Jan




                                                                                                                                                                                                                     1Q 2000

                                                                                                                                                                                                                               2Q 2000

                                                                                                                                                                                                                                            3Q 2000

                                                                                                                                                                                                                                                           4Q 2000

                                                                                                                                                                                                                                                                               1Q 2001

                                                                                                                                                                                                                                                                                              2Q 2001

                                                                                                                                                                                                                                                                                                          3Q 2001

                                                                                                                                                                                                                                                                                                                    4Q 2001

                                                                                                                                                                                                                                                                                                                                 1Q 2002

                                                                                                                                                                                                                                                                                                                                             2Q 2002

                                                                                                                                                                                                                                                                                                                                                            3Q 2002

                                                                                                                                                                                                                                                                                                                                                                                4Q 2002
                                                    2000                             2001                                 2002                             2003




                  Figure 31: Debt to Investment Ratio by Airline                                                                                                                           Figure 32: Airport and Airway Trust Fund
                  Airline Debt to Investment Ratio for Quarter Ending 12/02                                                                                                                Estimated Revenues 2/03 vs. Pre-9/11 (FAA Data)
                  (DOT Data)
                                                                                                                                                                                                                                                                                                                                                              $15.8
                      350%                                                                                                                                       314%                          $16                                                                                                                               $14.9
                                                                                                                                                                                                                                                                                                          $14.1
                                                                                                                                                                                                                                                                           $13.3
                      300%                                                                                                                                                                     $14                                         $12.6                                                                                                       $12.8
                                                                                                                                                                                                                   $11.9                                                                                                      $12.2
                                                                                                                                                                                                                                                                                                   $11.5
                      250%                                                                                                                                                                     $12                                                             $10.9
                                                                                                                                                                                                                                 $10.2
  Percentage




                                                                                                                                                                                                              $9.4
                                                                                                                                                                               Billions




                      200%                                                                                                                                                                     $10

                                                                                                                                                                                                   $8
                      150%
                                                                                                                                             108%
                                                                                         86%                 88%             89%                                                                   $6
                      100%                 61%              71%             72%
                                                                                                                                                                                                   $4
                      50%      28%
                                                                                                                                                                                                   $2
                       0%
                                                                                                                                                                                                   $0
                                                                                                                                                                  US Airways
                                                                                            American
                                             Alaska

                                                        America




                                                                                                             Continental
                               Southwest




                                                                                                                                               United
                                                                                                                                 Delta
                                                                            Northwest
                                                         West




                                                                                                                                                                                                              FY 2003             FY 2004                       FY 2005                             FY 2006                   FY 2007                  FY 2008

                                                                                                                                                                                                                               February 2003                                                                  Pre-September 11




                                                                                                                                                                                                                                                                                                                                                                            11
                                                                                                                                    Airline Industry Metrics


        Figure 33: Non-Hub vs. Larger Airports                                                                                                                                Figure 34: Regional Differences at Non-Hubs
        Percent Change in Available Seats from 1998 (FAA Data)                                                                                                                Percent Change in Available Seats at Non-Hub Airports 6/03 vs. 6/00
                                                                                                                                                                              (FAA Data)
                  20%                                                                                                                        Larger                                                                                         Midwest
                                                                                                                                             Airports                                          West                                          -26%
                  10%                                                                                                                          -4%                                             -8%
                                                                                                                                                                                                                                                              Northeast
                   0%
    Percentage




                                                                                                                                                                                                                                                               -36%
                 -10%

                 -20%
                                                                                                                                             Non-Hub                                                                                                  South
                 -30%
                                                                                                                                             Airports
                                                                                                                                              -18%
                                                                                                                                                                                                                                                      -18%
                 -40%
                                   May-99




                                                               May-00




                                                                                                                                                        May-03
                        Jan-99




                                                      Jan-00




                                                                                                                                               Jan-03
                                             Sep-99




                                                                         Sep-00




                                                                                                                                    Sep-02




                                                                                                                                                                 Sep-03
                                                                                             May-01




                                                                                                                           May-02
                                                                                   Jan-01




                                                                                                                 Jan-02
                                                                                                       Sep-01




                                                                                                                                                                                                                 National Average -18%
                                                      Non-Hub Airports                                                    Larger Airports



     Figure 35: Access to Large Airports                                                                                                                                      Figure 36: Type of Aircraft at Non-Hub Airports
     Percent Change in Number of Scheduled Flights 6/03 vs. 6/00                                                                                                              Percent Change in Scheduled Flights by Type of Aircraft 6/03 vs. 6/00 (FAA
     (FAA Data)                                                                                                                                                               Data)

                   0%                                                                                                                                                                       200%
                                                                                                                                                                                                                                                              155%
                  -5%                                                                                                                                                                       150%
                                                                                                                -5%
                                                                         -6%
                 -10%                                                                                                                                                                       100%
Percentage




                                                                                                                                                                             Percentage




                 -15%                  -13%                                                                                                                                                  50%
                                                                                                                                                                                                                                              0%
                 -20%                                                                                                                                                                         0%

                 -25%                                                                                                                          -23%
                                                                                                                                                                                            -50%       -35%              -29%

                 -30%
                                                                                                                                                                                            -100%
                                 Large to Large                Medium to Large                        Small to Large                     Non-Hub to
                                                                                                                                                                                                      Turboprop        Large Jets            Piston      Regional Jets
                                                                                                                                           Large
                                                                                                                                                                                                                          Type of Aircraft




     Figure 37: Airline Market Share at Non-Hubs                                                                                                                                   Figure 38: Essential Air Service
     Airline Market Share by Available Seats at Non-Hub Airports                                                                                                                   Congressional Funding and Subsidized Communities (DOT Data)
     (FAA Data)*
                                                                                                                                                                                            $140                                                                 140
                 100%
                                                                                                                                                                                            $120                                                                 120
                                              77%                                 77%                                77%                                78%
                                                                                                                                                                                            $100                                                                 100
                                                                                                                                                                                                                                                                       EAS Communities




                 75%
                                                                                                                                                                           Appropriations
                                                                                                                                                                             (Millions)




                                                                                                                                                                                             $80                                                        ?        80
Percentage




                 50%                                                                                                                                                                         $60                                                                 60

                                                                                                                                                                                             $40                                                                 40
                                 21%                            21%                                   20%                             19%
                 25%
                                                                                                                                                                                             $20                                                                 20
                                        2%                               3%                                     3%                              3%
                  0%
                                                                                                                                                                                              $0                                                                 0
                                    6/2000                              6/2001                           6/2002                               6/2003                                                FY 99     FY 00    FY 01        FY 02     FY 03 FY 04*

* All percentages
                                                                                                                                                                                                                                       Appropriations
  are rounded.
                                                         Network                            Low Fare                          All Others                                  *President's proposed FY '04 budget.
                                                                                                                                                                                                                                       Subsidized Communities


                                                                                                                                                                                                                                                                  12
                           Airline Industry Metrics
Figure 1: Passenger Enplanements
Percent Change in Revenue Passenger Enplanements from 2000
(ATA Data)
                     2001              2002             2003
   Month      (Percent Change   (Percent Change   (Percent Change
                 from 2000)        from 2000)        from 2000)
January              4%               -10%               -8%
February             -3%              -15%              -16%
March                -2%              -12%              -16%
April                 0%              -13%              -18%
May                  -2%              -13%              -17%
June                 -2%              -13%            Not Given
July                  0%              -11%            Not Given
August                3%               -8%            Not Given
September           -34%              -16%            Not Given
October             -22%              -14%            Not Given
November            -19%              -18%            Not Given
December            -14%               -4%           Not Given

Note: September 2001 Enplanements Down 34 Percent
Note: May 2003 Enplanements Down 17 Percent




508 Compliant 7-03.doc
07/03/2003
Figure 2: Capacity versus Demand
Percent Change in Available Seat Miles Versus Revenue Passenger
Miles from 2000 (ATA Data)

                             2001                    2002                     2003
               2001                     2002                     2003
                          Change in                Change in                Change in
             Change in                Change in                Change in
  Month                    Revenue                  Revenue                  Revenue
             Available                Available                Available
                          Passenger                Passenger                Passenger
             Seat Miles               Seat Miles               Seat Miles
                            Miles                    Miles                    Miles
January          5%           6%         -8%          -7%         -6%          -1%
February        -1%          -2%        -12%         -11%        -14%         -11%
March           0%            0%         -9%          -7%        -10%         -10%
April           2%            0%         -7%         -10%        -11%         -12%
May             3%           -2%         -6%          -9%        -12%         -11%
June             3%          -1%         -4%          -8%      Not Given    Not Given
July             4%           1%         -3%          -6%      Not Given    Not Given
August           4%           4%         -4%          -4%      Not Given    Not Given
September      -19%         -32%         -8%         -12%      Not Given    Not Given
October        -15%         -20%         -9%         -10%      Not Given    Not Given
November       -14%         -17%        -10%         -14%      Not Given    Not Given
December       -10%         -12%         -6%           0%      Not Given    Not Given

Note: May 2003 Available Seat Miles Down 12 Percent
Note: May 2003 Revenue Passenger Miles Down 11 Percent




508 Compliant 7-03.doc
07/03/2003
Figure 3: Actual Flight Operations
Percent Change in Air Route Traffic Control Center Operations
from 2000 (FAA Data)

                       2001              2002              2003
     Month        Percent Change    Percent Change    Percent Change
                   in Operations     in Operations     in Operations
January                  5%              -3%                0%
February                -4%              -8%               -10%
March                   -2%              -7%                -7%
April                    0%              -3%                -5%
May                     -1%              -4%                -7%
June                    -3%              -4%             Not Given
July                     1%              -1%             Not Given
August                   0%              -4%             Not Given
September              -16%              -5%             Not Given
October                 -8%              -4%             Not Given
November                -8%              -7%             Not Given
December                -5%              -1%             Not Given

Note: September 2001 Actual Flight Operations Down 16 Percent
Note: May 2003 Actual Flight Operations Down 7 Percent

Figure 4: Major Airlines Actual Arrivals
Percent Change in Actual Arrivals by Airline April 2003 Versus April 2000
(FAA Data)

                       2003
                    Percentage
     Airline         Change
Southwest              9%
Alaska                 2%
America West           -2%
Northwest              -6%
Continental           -19%
American              -20%
Delta                 -27%
United                -29%
US Airways            -38%


508 Compliant 7-03.doc
07/03/2003
Figure 5: Scheduled Capacity
Percent Change in Scheduled Flights and Available Seats at
All Airports from 2000 (FAA Data)
                2001         2001        2002        2002         2003         2003
              Percent      Percent     Percent     Percent      Percent      Percent
  Month
              Change       Change      Change      Change       Change      Change in
             in Flights    in Seats   in Flights   in Seats    in Flights     Seats
January          2%           3%        -11%        -10%         -11%         -11%
February         0%           2%        -11%        -10%         -12%         -12%
March           -1%           1%        -11%        -10%         -12%         -12%
April            1%           1%         -8%         -8%         -11%         -12%
May              0%           1%         -9%         -8%         -14%         -15%
June             0%           1%         -8%         -7%         -12%         -13%
July             1%           2%         -7%         -6%          -9%         -11%
August           0%           1%         -7%         -7%         -11%         -13%
September       -1%           0%        -10%        -10%         -10%         -12%
October         -5%          -4%        -11%        -11%       Not Given    Not Given
November       -15%         -15%        -12%        -12%       Not Given    Not Given
December       -15%         -14%        -11%        -12%       Not Given    Not Given

Figure 6: Regional Differences at All Airports
Percent Change in Available Seats at All Airports June 2003 Versus June 2000
(FAA Data)
                                                              Percent Change
                          Region                                in Available
                                                                    Seats
Northeast (includes Connecticut, Maine, Massachusetts,             -18%
New Hampshire, New Jersey, New York, Pennsylvania,
Rhode Island, Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas,                 -13%
Michigan, Minnesota, Missouri, Nebraska, North Dakota,
Ohio, South Dakota, Wisconsin)
West (includes Alaska, Arizona, California, Colorado,              -13%
Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon,
Utah, Washington, Wyoming)
South (includes Alabama, Arkansas, Delaware, Florida,              -11%
Georgia, Kentucky, Louisiana, Maryland, Mississippi,
North Carolina, Oklahoma, South Carolina, Tennessee,
Texas, Virginia, West Virginia)
National Average                                                   -13%
508 Compliant 7-03.doc
07/03/2003
Figure 7: Large Airports
Percent Change in Scheduled Flights and Available Seats at the
31 Largest Airports June 2003 Versus June 2000 (FAA Data)

 Largest Airports        Percent Change     Percent Change in
                            in Flights       Available Seats
Fort Lauderdale                2%                  11%
Baltimore                     -12%                  0%
Kennedy                       -39%                 -4%
Las Vegas                      -6%                 -5%
Salt Lake City                 9%                  -5%
Houston                        -4%                 -5%
Charlotte                      -1%                 -5%
Tampa                         -16%                 -5%
Minneapolis                    -3%                 -7%
San Diego                      -6%                 -7%
Atlanta                        -2%                 -7%
Detroit                        -2%                 -7%
Cincinnati                     8%                  -8%
Seattle                       -15%                 -8%
LaGuardia                      2%                  -9%
Phoenix                        -9%                -10%
Orlando                       -16%                -10%
Denver                         -7%                -11%
Chicago O’Hare                 -1%                -11%
Philadelphia                  -10%                -12%
Dallas-Ft. Worth               -9%                -14%
Miami                         -28%                -16%
Reagan National                -4%                -17%
Newark                        -14%                -20%
Los Angeles                   -26%                -26%
Boston                        -31%                -27%
Pittsburgh                    -21%                -28%
Honolulu                      -20%                -28%
St. Louis                     -17%                -32%
Dulles                        -43%                -32%
San Francisco                 -31%                -32%




508 Compliant 7-03.doc
07/03/2003
Figure 8: Length of Flight
Percent Change in Scheduled Flights by Length of Flight
June 2003 Versus June 2000 (FAA Data)

                                    2003
   Range in Miles             Percent Change
                                 in Flights
0 to 249 miles                    -24%
250 to 499 miles                  -12%
500 to 999 miles                   5%
1,000 miles or more                -2%
Figure 9: Short Haul Flights by Type of Airline
Percent Change in Scheduled Flights Less Than 250 Miles by
Type of Airline June 2003 Versus June 2000 (FAA Data)

                                    2003
 Type of Air Carrier          Percent Change
                                  in Type
Network                           -39%
Low Fare                           -6%
All Others                        -22%
Figure 10: Airline Market Share
Airline Market Share by Available Seats (FAA Data)
  Carrier Type         June         June       June       June
                       2000         2001       2002       2003
Network                65%          64%        60%        56%
Low Fare               15%          17%        19%        21%
All Others             20%          20%        21%        23%
Note: All percentages are rounded.




508 Compliant 7-03.doc
07/03/2003
Figure 11: Market Share of Low-Fare Service
Airline Share of Service by Available Seats, June 2003 (FAA Data)

                           Market Share
   Low-Fare Airline
                            Percentage
Southwest                      68%
Airtran                        9%
American Trans Air              8%
JetBlue                         6%
Frontier                        4%
Spirit                          3%
Delta Song                      2%
Other                           1%
Note: All Percentages are rounded.

Figure 12: Low-Fare Service Growth
Airline Share of Growth by Available Seats, June 2003 Versus June 1998
(FAA Data)
                         Service Growth
  Low-Fare Airline
                           Percentages
Southwest                     41%
JetBlue                       17%
American Trans Air            13%
Airtran                       10%
Frontier                       8%
Spirit                         6%
Delta Song                     4%
Other                          1%
Note: All percentages are rounded.

Figure 13: Type of Aircraft
Percent Change in Number of Scheduled Flights by Type of Aircraft
June 2003 Versus June 2000 (FAA Data)
    Type of       Percent Change in
    Aircraft           Flights
Turboprop               -44%
Large Jets              -18%
Piston                   0%
Regional Jets           142%

508 Compliant 7-03.doc
07/03/2003
Figure 14: Regional Jets at Large Airports
Regional Jets Share of Scheduled Flights at 31 Largest Airports June 2003
Versus June 2000 (FAA Data)

 Largest Airports          June 2000               June 2003
                           Percentage              Percentage
                         Share of Flights        Share of Flights
Cincinnati                    55%                     72%
Houston                       14%                     40%
Newark                        10%                     36%
Reagan National                7%                     32%
Dallas-Ft. Worth               6%                     31%
Salt Lake City                11%                     31%
Boston                         7%                     30%
LaGuardia                     14%                     30%
Atlanta                        9%                     25%
Chicago O’Hare                14%                     24%
Pittsburgh                     2%                     21%
Charlotte                      3%                     19%
Kennedy                        4%                     18%
Detroit                        2%                     18%
Orlando                        4%                     17%
St. Louis                      4%                     16%
Philadelphia                   6%                     16%
San Francisco                  0%                     14%
Denver                         1%                     14%
Phoenix                        5%                     11%
Minneapolis                    1%                     11%
Dulles                        16%                      9%
Los Angeles                    0%                      8%
Tampa                          0%                      7%
Miami                          2%                      6%
Fort Lauderdale                2%                      5%
Baltimore                      1%                      5%
Seattle                        0%                      3%
San Diego                      0%                      3%
Las Vegas                      0%                      1%
Honolulu                       0%                      0%



508 Compliant 7-03.doc
07/03/2003
Figure 15: Market Share by Aircraft Type
Percent Share of Scheduled Flights by Type of Aircraft (FAA Data)

                         June             June             June          June
  Aircraft Type
                         2000             2001             2002          2003
Large Jets               58%              58%              57%           54%
Regional Jets             8%              11%              16%           21%
Turboprop                28%              25%              21%           18%
Piston                    6%               6%               6%            7%

Note: All percentages are rounded.

Figure 16: Arrival Delays (FAA Data)

                  2000           2001             2002         2003
                Arrival         Arrival          Arrival      Arrival
  Month         Delays          Delays           Delays       Delays
January          71,485         69,926           49,657       37,552
February         69,499         72,135           36,355       45,191
March            71,757         73,004           57,281       41,095
April            74,655         61,285           46,842       29,885
May              77,400         56,141           47,038      Not Given
June            100,115         72,641           56,011      Not Given
July             93,399         69,392           54,355      Not Given
August           96,550         76,237           47,160      Not Given
September        66,251         38,967           30,598      Not Given
October          75,543         39,694           41,050      Not Given
November         81,731         38,464           37,357      Not Given
December        105,180         52,064           54,108      Not Given

Note: April 2003 Versus April 2000 Down 60 Percent




508 Compliant 7-03.doc
07/03/2003
Figure 17: Departure Delays (FAA Data)

                2000           2001        2002         2003
              Departure      Departure   Departure    Departure
  Month        Delays         Delays      Delays       Delays
January        59,344         62,032      40,524       30,598
February       59,316         61,044      30,542       36,228
March          61,678         65,503      49,324       32,712
April          63,372         53,421      37,751       24,496
May            67,571         47,207      37,706      Not Given
June           90,115         63,980      49,880      Not Given
July           85,049         62,108      49,973      Not Given
August         85,760         67,209      42,680      Not Given
September      55,667         39,229      25,672      Not Given
October        63,742         41,444      32,072      Not Given
November       70,997         35,169      28,495      Not Given
December       98,386         48,710      47,855      Not Given

Note: April 2003 Versus April 2000 Down 61 Percent

Figure 18: Cancellations (FAA Data)

                 2000              2001           2002            2003
  Month      Cancellations     Cancellations   Cancellations   Cancellations
January         18,512            12,077          4,199           2,813
February        11,477            10,706          2,361           8,873
March            7,585            11,753          3,063           3,743
April            8,853             7,086          2,265           2,096
May             12,835             5,796          2,399         Not Given
June            14,407            10,135          4,621         Not Given
July            11,985             7,189          3,659         Not Given
August          11,538             8,528          2,834         Not Given
September        8,057            64,947          1,861         Not Given
October          7,977             2,966          2,188         Not Given
November         8,150             2,371          1,767         Not Given
December        21,333             2,161          4,057         Not Given

Note: April 2003 Versus April 2000 Down 76 Percent
Note: September 2001 Cancellations Totaled 64,947


508 Compliant 7-03.doc
07/03/2003
Figure 19: Percent of Flights Arriving Late
(FAA Data)

  Month        2000       2001         2002        2003
January        23%        21%          18%         14%
February       23%        24%          14%         19%
March          22%        22%          20%         15%
April          23%        19%          17%         12%
May            24%        17%          16%       Not Given
June           32%        22%          20%       Not Given
July           28%        21%          18%       Not Given
August         29%        22%          16%       Not Given
September      21%        16%          11%       Not Given
October        23%        14%          14%       Not Given
November       26%        14%          14%       Not Given
December       33%        19%          20%       Not Given

Note: April 2003 12 Percent of Flights Arrived Late
Note: December 2000 33 Percent of Flights Arrived Late

Figure 20: Percent of Flights Departing Late
(FAA Data)

  Month        2000       2001          2002         2003
January        19%        19%           15%          11%
February       20%        21%           12%          15%
March          19%        20%           17%          12%
April          20%        17%           14%          10%
May            21%        14%           13%        Not Given
June           28%        20%           17%        Not Given
July           26%        18%           17%        Not Given
August         26%        20%           14%        Not Given
September      17%        16%            9%        Not Given
October        19%        15%           11%        Not Given
November       22%        13%           11%        Not Given
December       31%        18%           18%        Not Given

Note: April 2003 10 Percent of Flights Departed Late
Note: December 2000 31 Percent of Flights Departed Late


508 Compliant 7-03.doc
07/03/2003
Figure 21: Length of Arrival Delays (FAA Data)
                 2000           2001           2002           2003
  Month      (In Minutes)   (In Minutes)   (In Minutes)   (In Minutes)
January           49             47             44             45
February          51             50             41             48
March             50             49             44             46
April             52             51             47             46
May               58             47             47         Not Given
June              59             57             55         Not Given
July              58             52             51         Not Given
August            55             56             49         Not Given
September         50             55             47         Not Given
October           49             44             42         Not Given
November          48             43             43         Not Given
December          54             42             53         Not Given
Note: April 2003 Arrivals Delayed 46 Minutes
Note: June 2000 Arrivals Delayed 59 Minutes

Figure 22: Length of Departure Delays (FAA Data)

              2000              2001           2002           2003
  Month   (In Minutes)      (In Minutes)   (In Minutes)   (In Minutes)
January        51                49             46             46
February       53                52             43             48
March          53                51             45             47
April          54                53             49             47
May            60                49             48         Not Given
June           59                58             54         Not Given
July           60                54             51         Not Given
August         56                57             50         Not Given
September      52                55             48         Not Given
October        52                42             45         Not Given
November       50                44             46         Not Given
December       55                42             52         Not Given
Note: April 2003 Departures Delayed 47 Minutes
Note: May 2000 Departures Delayed 60 Minutes



508 Compliant 7-03.doc
07/03/2003
Figure 23: Business and Leisure Travel
Percent Change in Business and Leisure Travel from 2000
Analyzed by Deutsche Bank Securities Inc. (ATA Data)
                 2001            2001            2002        2002
  Month        Change in       Change in       Change in   Change in
               Business         Leisure        Business     Leisure
January           -10%            4%             -30%        -11%
February          -19%            -3%            -35%        -15%
March             -20%            -1%            -34%        -12%
April             -18%            0%             -29%        -15%
May               -23%            -1%            -32%        -14%
June              -20%            -1%            -32%        -13%
July              -18%            1%             -26%        -12%
August            -19%            4%             -28%         -8%
September         -47%           -34%            -31%        -16%
October           -37%           -23%            -30%        -14%
November          -31%           -20%            -32%        -19%
December          -23%           -15%            -26%         -4%
Note: September 2001 Business Travel Down 47 percent
Note: December 2002 Business Travel Down 26 Percent




508 Compliant 7-03.doc
07/03/2003
Figure 24: Air Fares for Major Network Airlines
Average Fare for 1,000 Mile Trip, Excluding Taxes (ATA Data)
               2000        2001        2002        2003
              Average     Average     Average     Average
  Month      Fare Cost   Fare Cost   Fare Cost   Fare Cost
January        $143        $148        $124        $119
February       $150        $151        $130        $123
March          $149        $145        $126        $121
April          $147        $143        $126        $120
May            $147        $136        $123        $118
June           $145        $133        $120      Not Given
July           $134        $122        $111      Not Given
August         $139        $121        $109      Not Given
September      $147        $120        $121      Not Given
October        $151        $123        $124      Not Given
November       $149        $125        $120      Not Given
December       $139        $119        $117      Not Given
Note: May 2003 Air Fare $118
Note: October 2000 Air Fare $151




508 Compliant 7-03.doc
07/03/2003
Figure 25: Airline Yield
Percent Change in Airline Yield from 2000 (ATA Data)
                     2001                2002                2003
  Month        Percent Change      Percent Change      Percent Change
                   in Yield            in Yield            in Yield
January              4%                 -13%                -16%
February              0%                -13%                -18%
March                -3%                -16%                -19%
April                -3%                -14%                -18%
May                  -7%                -16%                -20%
June                 -9%                -17%             Not Given
July                 -9%                -18%             Not Given
August              -13%                -21%             Not Given
September           -18%                -17%             Not Given
October             -19%                -18%             Not Given
November            -16%                -20%             Not Given
December            -15%                -16%             Not Given
Note: October 2001 Yield Down 19 Percent
Note: May 2003 Yield Down 20 Percent




508 Compliant 7-03.doc
07/03/2003
Figure 26: Passenger Load Factors
Actual Versus Breakeven Percentages (DOT Data)

                           Actual       Breakeven
       Quarter           Load Factor   Load Factor
First Quarter 2000          69%           68%
Second Quarter 2000         76%           67%
Third Quarter 2000          76%           71%
Fourth Quarter 2000         70%           72%
First Quarter 2001          68%           74%
Second Quarter 2001         74%           76%
Third Quarter 2001          72%           88%
Fourth Quarter 2001         66%           90%
First Quarter 2002          70%           85%
Second Quarter 2002         74%           83%
Third Quarter 2002          74%           87%
Fourth Quarter 2002         70%           85%

Note: Fourth Quarter 2002 Breakeven Load Factor 85 Percent
Note: Fourth Quarter 2002 Actual Load Factor 70 Percent

Figure 27: Individual Airline Load Factors
Actual Versus Breakeven Percentages for Quarter Ending December 2002
(DOT Data)

                           Actual       Breakeven
       Airline           Load Factor   Load Factor
Southwest                   63%            58%
Delta                       66%            74%
Continental                 71%            75%
Alaska                      67%            81%
America West                73%            82%
US Airways                  68%            82%
American                    70%            89%
Northwest                   74%           103%
United                      72%           106%




508 Compliant 7-03.doc
07/03/2003
Figure 28: Revenues Versus Expenses
Airline Operating Revenues Versus Operating Expenses (DOT Data)

                          Operating Revenues    Operating Expenses
        Quarter
                              In Billions           In Billions
First Quarter 2000               $22.6                 $21.8
Second Quarter 2000              $25.4                 $22.6
Third Quarter 2000               $25.9                 $24.0
Fourth Quarter 2000              $24.2                 $24.1
First Quarter 2001               $23.3                 $24.1
Second Quarter 2001              $24.3                 $25.0
Third Quarter 2001               $21.2                 $24.4
Fourth Quarter 2001              $16.6                 $20.9
First Quarter 2002               $18.2                 $20.9
Second Quarter 2002              $20.4                 $21.9
Third Quarter 2002               $20.2                 $22.6
Fourth Quarter 2002              $18.9                 $21.8

Note: Fourth Quarter 2002 Operating Expenses Were $21.8 Billion
Note: Fourth Quarter 2002 Operating Revenues Were $18.9 Billion

Figure 29: Cost Per Gallon for Jet Fuel (ATA Data)

             2000              2001            2002           2003
  Month
          Average Cost      Average Cost    Average Cost   Average Cost
January      $0.70             $0.86           $0.60          $0.84
February     $0.73             $0.85           $0.62          $0.88
March        $0.75             $0.80           $0.62          $1.05
April        $0.74             $0.77           $0.69          $0.83
May          $0.72             $0.78           $0.70        Not Given
June         $0.70             $0.81           $0.67        Not Given
July         $0.77             $0.77           $0.71        Not Given
August       $0.78             $0.77           $0.72        Not Given
September    $0.86             $0.79           $0.77        Not Given
October      $0.89             $0.71           $0.81        Not Given
November     $0.89             $0.66           $0.77        Not Given
December     $0.91             $0.57           $0.76        Not Given

Note: April 2003 Jet Fuel Cost Was 20 Percent Higher Than April 2002

508 Compliant 7-03.doc
07/03/2003
Figure 30: Debt to Investment Ratio
Airline Debt to Investment Ratio for All Major Airlines (DOT Data)

                             Ratio
        Quarter
                          (Percentage)
First Quarter 2000            50%
Second Quarter 2000           48%
Third Quarter 2000            48%
Fourth Quarter 2000           53%
First Quarter 2001            54%
Second Quarter 2001           54%
Third Quarter 2001            60%
Fourth Quarter 2001           66%
First Quarter 2002            68%
Second Quarter 2002           70%
Third Quarter 2002            73%
Fourth Quarter 2002           87%

Figure 31: Debt to Investment Ratio by Airline
Airline Debt to Investment Ratio for Quarter Ending December 2002
(DOT Data)

                     Ratio
    Airlines
                  (Percentage)
Southwest              28%
Alaska                 61%
America West           71%
Northwest              72%
American               86%
Continental            88%
Delta                  89%
United                108%
US Airways            314%




508 Compliant 7-03.doc
07/03/2003
Figure 32: Airport and Airway Trust Fund
Estimated Revenues February 2003 Versus Pre-September 11, 2001 (FAA Data)

                February 2003    Pre-September 11
Fiscal Year
                 (In Billions)      (In Billions)
    2003              $9.4              $11.9
    2004             $10.2              $12.6
    2005             $10.9              $13.3
    2006             $11.5              $14.1
    2007             $12.2              $14.9
    2008             $12.8              $15.8




508 Compliant 7-03.doc
07/03/2003
Figure 33: Non-Hub Versus Larger Airports
Percent Change in Available Seats from 1998 (FAA Data)


                  Non-Hub Larger
     Month
                  Airports Airports

January 1999         -2%       5%
February 1999         0%       6%
March 1999            0%       7%
April 1999            0%       7%
May 1999              0%       9%
June 1999            -1%       8%
July 1999            -2%       7%
August 1999          0%       8%
September 1999        0%       7%
October 1999          0%       8%
November 1999         3%       8%
December 1999         2%       7%
January 2000         -2%      10%
February 2000         3%      15%
March 2000            0%      12%
April 2000           -2%      12%
May 2000              1%      13%
June 2000            -2%      11%
July 2000            -3%       9%
August 2000          -3%      11%
September 2000       -3%       9%
October 2000         -1%      11%
November 2000         0%      11%
December 2000        -4%      10%
January 2001         -4%      14%
February 2001        -5%      13%
March 2001           -6%      13%
April 2001           -7%      13%
May 2001             -5%      15%
June 2001            -8%      12%
July 2001            -8%      12%
August 2001          -8%      13%
September 2001      -10%      10%
October 2001        -10%       8%


508 Compliant 7-03.doc
07/03/2003
                  Non-Hub Larger
     Month
                  Airports Airports
November 2001      -18%      -5%
December 2001      -19%      -6%
January 2002       -17%       0%
February 2002      -17%       0%
March 2002         -17%       1%
April 2002         -15%       3%
May 2002           -14%       4%
June 2002          -16%       3%
July 2002          -15%       4%
August 2002        -13%      3%
September 2002     -18%      -1%
October 2002       -18%       0%
November 2002      -18%      -2%
December 2002      -19%      -4%
January 2003       -21%      -1%
February 2003      -19%      -2%
March 2003         -19%      -1%
April 2003         -20%      -1%
May 2003           -20%      -4%
June 2003          -19%      -3%
July 2003          -17%      -3%
August             -17%      -3%
September          -18%      -4%

Note: September 2003 Larger Airports Down 4 Percent
Note: September 2003 Non-Hub Airports Down 18 Percent




508 Compliant 7-03.doc
07/03/2003
Figure 34: Regional Differences at Non-Hubs
Percent Change in Available Seats at Non-Hub Airports
June 2003 Versus June 2000 (FAA Data)

                                                         Percent Change
                         Region                            in Available
                                                               Seats
Northeast (includes Connecticut, Maine, Massachusetts,        -36%
New Hampshire, New Jersey, New York, Pennsylvania,
Rhode Island, Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas,            -26%
Michigan, Minnesota, Missouri, Nebraska, North Dakota,
Ohio, South Dakota, Wisconsin)
South (includes Alabama, Arkansas, Delaware, Florida,         -18%
Georgia, Kentucky, Louisiana, Maryland, Mississippi,
North Carolina, Oklahoma, South Carolina, Tennessee,
Texas, Virginia, West Virginia)
West (includes Alaska, Arizona, California, Colorado,         -8%
Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon,
Utah, Washington, Wyoming)
National Average                                              -18%

Figure 35: Access to Large Airports
Percent Change in Number of Scheduled Flights June 2003 Versus June 2000
(FAA Data)

                                       Percent Change
           Hub Access                     In Flights
Large Hub to Large Hub                      -13%
Medium Hub to Large Hub                      -6%
Small Hub to Large Hub                       -5%
Non-Hub to Large Hub                        -23%




508 Compliant 7-03.doc
07/03/2003
Figure 36: Type of Aircraft at Non-Hub Airports
Percent Change in Scheduled Flights by Type of Aircraft
June 2003 Versus June 2000 (FAA Data)


 Aircraft Type             Percent Change
Turboprop                       -35%
Large Jets                      -29%
Piston                           0%
Regional Jets                   155%

Figure 37: Airline Market Share at Non-Hubs
Airline Market Share by Available Seats at Non-Hub Airports
(FAA Data)

                         June      June       June         June
  Airline Market
                         2000      2001       2002         2003
Network                  21%       21%        20%          19%
Low Fare                  2%        3%         3%           3%
All Others               77%       77%        77%          78%

Note: All Percentages are rounded.

Figure 38: Essential Air Service
Congressional Funding and Subsidized Communities (DOT Data)

                                                                   Number of
                                          Appropriations
             Fiscal Year                                          Communities
                                           In Millions
                                                                   Subsidized
1999                                           $50                    100
2000                                           $50                    106
2001                                           $50                    115
2002                                          $113                    123
2003                                          $113                    125
President’s Proposed Budget 2004              $50                 Undetermined




508 Compliant 7-03.doc
07/03/2003
